                        FARM CREDIT ADMINISTRATION

                 INDEPENDENT ACCOUNTANTS’ REPORT:
                     FEDERAL INFORMATION SECURITY
                      MANAGEMENT ACT EVALUATION

                      For the Year Ending September 30, 2006




HARPER, RAINS, KNIGHT & COMPANY, P.A.
   CERTIFIED PUBLIC ACCOUNTANTS
       RIDGELAND, MISSISSIPPI
                              Independent Accountants’ Report: FISMA Evaluation


Table of Contents
Executive Summary ...................................................................................................................... 2
Independent Accountants’ Report .............................................................................................. 3
Appendix A, Object, Scope, Methodology, and Results ............................................................ 4
Appendix B, OMB FISMA Reporting Template ..................................................................... 13
Appendix C, Acronyms and Abbreviations.............................................................................. 18




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                       1
                      Independent Accountants’ Report: FISMA Evaluation


Executive Summary
The Federal Information Security Management Act of 2002 (FISMA) requires agency program
officials, Chief Information Officers (CIO), and Inspector Generals (IGs) to conduct annual
reviews of the agency’s information security program and report the results to the Office of
Management and Budget (OMB). OMB issues annual reporting guidance in the form of a
memorandum to the respective parties. Under contract with the Farm Credit Administration’s
(FCA or the Agency) Officer of Inspector General we performed an evaluation of the Agency’s
security program and practices, solely to assist the IG with the annual evaluation and reporting to
OMB.

This report includes the objective, scope, methodology, and results of our evaluation to assist
with reporting requirements of the FISMA submitted to OMB.

Our evaluation included determination of the critical elements which represent tasks that are
essential for establishing compliance with FISMA, and guidelines issued by OMB, the
Government Accountability Office (GAO), the Chief Information Officers (CIO) Council, and
the National Institute of Science and Technology (NIST) for each control category, including:

    •   documented security policies;
    •   documented security procedures;
    •   implemented security procedures and controls;
    •   tested and reviewed security procedures and controls; and
    •   fully integrated security procedures and controls.

Our evaluation was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.

Our evaluation did not reveal any information security control matters that we deemed to be
significant deficiencies that must be reported under FISMA.




Prepared by Harper, Rains, Knight & Company, P.A.                                                 2
                             Independent Accountants’ Report

Mr. Carl Clinefelter,
Inspector General
Farm Credit Administration
1501 Farm Credit Drive
McLean, Virginia 22102-5090


Harper, Rains, Knight & Company, P.A. conducted an evaluation of the Farm Credit
Administration’s security program and practices for compliance with requirements of the Federal
Information Security Management Act of 2002 (FISMA).

We conducted the evaluation solely to assist the Office of Inspector General with the annual
evaluation and reporting to Office of Management and Budget (OMB) of the Farm Credit
Administration's security program and practices.

Our evaluation did not reveal any information security control matters that we deemed to be
significant deficiencies that must be reported under OMB FISMA requirements, see Appendix B.

We conducted our evaluation in accordance Government Auditing Standards, issued by the
Comptroller General of the United States, for performance audits. Our objective, scope,
methodology, and results are detailed in Appendix A.

We were not engaged to, and did not perform an audit of Farm Credit Administration’s security
program and practices, the objective of which would be the expression of an opinion on such
information. Accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the Farm Credit Administration’s
Office of Inspector General, Office of Management Services, and Board of Directors, and is not
intended to be, and should not be, used by anyone other then these specified parties.




Harper, Rains, Knight & Company, P.A.
September 29, 2006




                                                                                             3
                     Independent Accountants’ Report: FISMA Evaluation


                                                                                 APPENDIX A

Objective
The objective of the evaluation was to (1) assist the IG in responding to reporting requirements
issued by OMB and (2) verify and test the Agency’s information system security program and
practices.



Scope
Our evaluation covered FCA’s agency owned and contractor operated information systems of
record as of September 30, 2006. FCA is a single program agency with five mission critical
systems. Mission critical systems are defined as any telecommunications or information system
used or operated by an agency or by a contractor of an agency, or organization on behalf of an
agency that processes any information, the loss, misuse, disclosure, or unauthorized access to or
modification of, would have a debilitating impact on the mission of an agency.

In accordance with FISMA and OMB’s implementation guidance, we evaluated the following
mission critical systems.

1. Major Applications

   a. Oracle Federal Financials from Bureau of the Public Debt (BPD)

       Oracle Federal Financials is the major application used at BPD that supports all FCA core
       accounting functions including budget execution, accounts payable, disbursements,
       purchasing, travel, accounts receivable, general ledger, document tracking, project cost
       accounting, and external reporting. The Administrative Resource Center (ARC) operates
       Oracle version 11i, with the Oracle 9i database, which runs on the ARC subnet and
       accesses data in the ARC Demilitarized Zone (DMZ) using Linux as its operating system.
       ORACLE uses a two-tier web-based infrastructure with a front-end Internet user interface
       and a database residing on the secure network. The application (web-applet) accesses the
       database IP to IP on a specified port that is defined in the Access Control List. External
       Internet access is via a SSL 128-bit encrypted connection. External security is also
       provided by OIT through a PIX firewall and router Access Control Lists. ARC also uses a
       report writer package called Discover that provides users with the ability to create their
       own ad hoc reports for query purposes.


   b. Payroll Services from National Finance Center (NFC)

       The National Finance Center (NFC) located in New Orleans, Louisiana provides the
       Personnel/Payroll System (PPS) to FCA. NFC provides distributed application and
       telecommunications support for the remote site located in McLean, Virginia. NFC
       developed a "master security plan" for the general support system in New Orleans. FCA's
       Office of Management Services (OMS) maintains a security plan for the remote system at
       FCA that incorporates provisions of the master security plan.



Prepared by Harper, Rains, Knight & Company, P.A.                                              4
                     Independent Accountants’ Report: FISMA Evaluation

   c. Consolidated Reporting System (CRS)

       CRS is a major application that supports FCA operations. CRS is an Oracle relational
       database containing financial and statistical information on active and inactive Farm
       Credit Institutions. CRS contains three distinct subsystems that are Call Report, Loan
       Account Reporting System (LARS), and Web-based CRS Reports:

       •      Call Report is comprised of financial information including a statement of
       condition, statement of income, and supporting schedules that is collected quarterly from
       the System Institutions. Call Report subsystem is monitored, analyzed, and assessed by
       FCA examiners and financial analysts to ensure that the integrity and confidentiality of
       financial data are maintained.

       •      LARS database contains specific loans of System Lender Institutions. Institutions
       submit the data quarterly to FCA via diskette or zip file. The loan data are loaded using
       SQLLoader, and are then verified and validated by FCA personnel.

       •       Web-based CRS Reports is an FCA developed application using the JavaScript
       front-end interface and an Oracle database back-end application. The reports are built
       using e-Reporting Suite, and are available on FCA's Web site. The Freedom of
       Information Act (FOIA) versions of the reports are available to the public. The non-FOIA
       versions of the reports are available to users who are authorized to view their institution
       data.

   d. Lotus Domino (Notes)

       Lotus Domino (Notes) application is a database system software owned and maintained
       by FCA. The application supports the daily administrative tasks including e-mail, group
       discussion, calendaring and scheduling, database management, forms, and workflow of
       FCA.

2. Mission Critical General Support Systems

   a. Windows Operating System

       Windows is an operating system or the core program of a computer that allows the other
       programs and applications to operate. Windows is fully integrated with networking
       capabilities and was designed for client/server computing to facilitate user workstation
       connections to servers and the sharing of information and services among computers.


       Windows 2003 Server is the primary operating system installed on servers in the FCA
       network. Additionally, Windows 2000 and XP are installed on agency laptop and desktop
       computers where they function as a client to the FCA network as well as a stand-alone
       operating system for the client hardware. Through Windows 2000/XP, users can access
       network services such as file servers, e-mail, the Internet, applications and shared
       hardware such as printers.




Prepared by Harper, Rains, Knight & Company, P.A.                                                 5
                     Independent Accountants’ Report: FISMA Evaluation


Methodology

The system evaluations were performed in accordance with the NIST assessment guide. The
Office of Inspector General, assisted by Harper, Rains, Knight & Company, P.A., the
independent evaluator, determined the critical elements that represent essential tasks for
establishing compliance with FISMA, and the guidelines issued by OMB, GAO, CIO Council,
and NIST for each control category, including:

    •      documented security policies;
    •      documented security procedures;
    •      implemented security procedures and controls;
    •      tested and reviewed security procedures and controls; and
    •      fully integrated security procedures and controls.

For each control category, the evaluator determined the associated objectives, risks, and critical
activities, as well as related control techniques and evaluation concerns specific to FCA's
information technology environment.


The evaluation was conducted in accordance with the requirements and criteria found in GAO's
FISCAM, OMB Circular A-130, Appendix III, "Security of Federal Automated Information
Resources," current NIST guidance, and the CIO Council Framework. We used this information
to evaluate FCA's practices and addressed the above five control areas to be considered in
determining compliance with FISMA. For each critical element, the evaluator made a summary
determination as to the effectiveness of FCA's related controls. If the controls for one or more of
each category's critical elements were found ineffective, then the controls for the entire category
are not likely to be effective. The evaluator exercised its professional judgment in making such
determinations.

The evaluation focused on the actual performance of the Agency's security program and
practices and not on how the Agency measures its performance in its own annual evaluations.
The Agency's security controls were evaluated for programs and practices including testing the
effectiveness of security controls for Agency systems or a subset of systems as required. The
evaluator performed FISMA evaluations in accordance with Federal guidance, e.g., NIST
Self-Assessment Guide for Information Technology Systems.


The evaluation procedures were divided into three “classes” and further divided into seventeen
“families” as identified in NIST Special Publication 800-53:
   •    Management
           o Risk assessment – Controls in place to categorize information systems in
             accordance with FIPS 199, to assess the potential impact of unauthorized access,
             and to update the risk assessment regularly.
           o Planning – Controls in place to ensure a security plan is in place and to ensure the
             plan is readily available, updated regularly, and tested.




Prepared by Harper, Rains, Knight & Company, P.A.                                                6
                     Independent Accountants’ Report: FISMA Evaluation

          o System and services acquisition – Controls in place to allocate resources during
            capital budgeting, using a system development life cycle, and to implement the
            information system using security engineering principles.
          o Certification, accreditation, and security awareness – Controls in place to certify
            and accredit information systems and interconnected systems and to develop and
            update the plan of action and milestones (POA&M).


   •   Operational
          o Personnel security – Controls in place for employee screening, handling of
            terminated employees, and compliance failure sanctions.
          o Physical and environmental control – Controls in place for physical access to the
            building and areas sensitive to information systems, visitor access, and
            preventative measures for physical damage to information systems components.
          o Contingency planning – Controls in place for training, testing, and reviews of all
            contingency plans as well as providing alternative storage and processing sites.
          o Configuration management – Controls in place to document configuration
            information, to monitor changes, and to restrict access to information systems.
          o Maintenance – Controls in place to control remote diagnostic activities, restrict
            personnel allowed to perform maintenance, keep maintenance contracts, and have
            spare parts on hand.
          o System and information integrity – Controls in place to correct system flaws,
            monitor systems events, and protect against unauthorized changes.
          o Media protection – Controls in place to ensure only authorized personnel have
            access to sensitive media, appropriately mark and store media, and sanitize media
            when it is no longer needed.
          o Incident response – Controls and procedures in place to train personnel in their
            roles, test the response capability, and properly document incidents.
          o Awareness and training – Controls in place to implement security awareness and
            training for all employees including managers and to monitor training and stay up
            to date with current technology and security practices.


   •   Technical
          o Identification and authentication – Controls in place to identify and authenticate
            users of information systems, to authenticate devices on information system
            networks, and to mange users of information systems.
          o Access control – Controls that limit and/or monitor access to computer resources
            (data, programs, equipment, and facilities) to protect against unauthorized
            modification, loss, and disclosure.
          o Audit and accountability – Controls in place to generate, review, and protect audit
            data and reports.
          o Systems and communication protection – Controls in place to separate user
            functionality from management, to protect against internet attacks, and to
            establish trusted communication paths between the user and the system.


Prepared by Harper, Rains, Knight & Company, P.A.                                            7
                     Independent Accountants’ Report: FISMA Evaluation




Results
Our procedures did not reveal any information system security control matters that we deemed to
be significant deficiencies that must reported under FISMA.

Risk assessment

FCA has controls in place to categorize information systems in accordance with FIPS 199, to
assess the potential impact of unauthorized access, and to update the risk assessment, at least
annually. We found FCA has policies and procedures in place and that they are periodically
reviewed. We found FCA categorizes information systems in accordance with FIPS 199. We
found FCA conducts annual risk assessments over their information systems. We found FCA has
a Continuity of Operations Plan (COOP) in place and that it is reviewed annually. We found
FCA has a system in place to track general security notifications and assess potential impact.

Planning

FCA has controls in place to ensure a security plan is in place and to ensure the plan is readily
available, updated regularly, and tested. We found FCA has policies and procedures in place and
that they are periodically reviewed. We found FCA has incorporated its security plans into the
COOP plan. We found the security plans are reviewed annually and revised when appropriate.
We found FCA provides training to employees on the expectations of using their information
systems. We founds FCA tests the impact of changes prior to implementing changes on their
information systems.

System and services acquisition

FCA has controls in place to allocate resources during capital budgeting, using a system
development life cycle, and to implement the information system using security engineering
principles, where applicable. We found FCA has policies and procedures in place and that they
are periodically reviewed. We found the Information Resources Management (IRM) plan
outlines and budgets for future information technology needs. We found FCA applies a system
development life cycle to their information systems. We found security is considered during
FCA’s information system planning and acquisition process. We found FCA tracks licenses and
installations to comply with software usage restrictions. We found FCA does not allow software
to be downloaded and installed unless it is supplied by FCA or approved on an individual basis.
We found that FCA designs and implements information systems using security engineering
principles.

Certification, accreditation, and security awareness

FCA has controls in place to certify and accredit information systems and interconnected
systems and to develop and update the plan of action and milestones (POA&M). We found FCA
has policies and procedures in place and that they are periodically reviewed. We found FCA


Prepared by Harper, Rains, Knight & Company, P.A.                                                 8
                     Independent Accountants’ Report: FISMA Evaluation

conducts assessments of security controls in information systems annually to determine the
extent to which controls are implemented correctly, operating as intended, and producing the
desired outcome. We found FCA authorizes all interconnections to other information systems
outside the accreditation boundary and monitors/controls the information system interconnects
on an ongoing basis. We found FCA develops and updates POA&Ms and reports POA&Ms on a
quarterly basis. We found FCA has a policy to perform C&A on its information systems every
three years or when significant information systems changes occur.

Personnel Security

FCA has controls in place for employee screening, handling of terminated employees, and
compliance failure sanctions. We found FCA has policies and procedures in place and that they
are periodically reviewed. We found each FCA Position Description (PD) has a “Position
Sensitivity” indicator. We found FCA employees are not granted access to information systems
without a sponsor’s approval. We found when an employee is terminated, quits, or retires FCA
requires the individual to complete a separation checklist. We found FCA requires new hires and
contractors to sign FCA’s Computer Security Program Employee Certification, which declares
they have read FCA’s Computer Security Program, Policies, and Procedures Manual.

Physical and environmental protection

FCA has controls in place for physical access to the building and areas sensitive to information
systems, visitor access, and preventive measures for physical damage to information systems
components. We found FCA has policies and procedures in place and that they are periodically
reviewed. We found FCA issues identification badges to all personnel, including contractors. We
found FCA controls all entry point via either guarded entry or Kastle Key access. We found a
visitor access log is maintained at the front desk. We found FCA’s information system
distribution and transmission lines are run through the secured computer room. We found all
visitors must be escorted in to the computer room by an FCA employee. We found FCA
maintains an uninterruptible power supply for the secured computer room. We found FCA
implements redundant HVAC units in the controlled computer room to control the temperature.
We found FCA keeps track of computers through the Property Management Tracking System
(PMTS).

Contingency planning

FCA has controls in place for training, testing, and reviews all contingency plans as well as
providing alternative storage and processing sites. We found FCA has policies and procedures in
place and that they are periodically reviewed. We found responsible FCA personnel have been
trained as to their responsibilities in the event of an emergency and the COOP has been regularly
tested via the COGCON exercises. We found the COOP is reviewed annually and updated as
required. We found FCA has an emergency operations center that serves as its alternate
processing site and the resumption of information system operations for mission critical
functions when the primary processing capabilities are unavailable. We found FCA runs backups
of user and systems information daily (incremental) and weekly (full).




Prepared by Harper, Rains, Knight & Company, P.A.                                               9
                     Independent Accountants’ Report: FISMA Evaluation


Configuration management

FCA has controls in place to document configuration information, to monitor changes, and to
restrict access to information systems. We found FCA has policies and procedures in place and
that they are periodically reviewed. We found information system changes are tested and
monitored after being put in production. We found FCA has established configuration setting for
information technology, has set default access as none, and enforces configuration settings in all
components of the information system.

Maintenance

FCA has controls in place to control remote diagnostic activities, restrict personnel allowed to
perform maintenance, keep maintenance contracts, and have spare parts on hand. We found FCA
has policies and procedures in place and that they are periodically reviewed. We found FCA does
not have vendors perform preventative maintenance on servers. We found FCA runs HP/Compaq
Insight System Manager, which monitors the health of servers and reports on problems via email.
We found FCA controls and monitors maintenance on FCA laptops. We found FCA has a
contract with a four hour response time to repair the servers.

System and information integrity

FCA has controls in place to correct system flaws, monitor system events, and protect against
unauthorized changes. We found FCA has policies and procedures in place and that they are
periodically reviewed. We found FCA has virus protection software installed and it updates
automatically. We found FCA continuously monitors the information systems to detect attacks
and prevent unauthorized use. We found FCA participates in the US-CERT program. We found
FCA restricts which personnel can make changes to the information systems. We found FCA
applications have edit checks built in to ensure data integrity.

Media protection

FCA has controls in place to ensure only authorized personnel have access to sensitive media,
mark and store media, and sanitize media when it is no longer needed. We found FCA has
policies and procedures in place and that they are periodically reviewed. We found FCA restricts
user access to drives and applications. We found FCA labels do not indicate what is stored on the
media and that back up tapes are stored in a safe. We found FCA controls the system media and
restricts the pickup, receipt, transfer, and delivery of such media to authorized personnel.

Incident response

FCA has controls and procedures in place to train personnel in their roles, test the response
capability, and properly document incidents. We found FCA has policies and procedures in place
and that they are periodically reviewed. We found FCA trains their employees to respond to
incidents. We found FCA continually monitors for intrusions and documents and investigates
unusual activity.




Prepared by Harper, Rains, Knight & Company, P.A.                                               10
                     Independent Accountants’ Report: FISMA Evaluation


Awareness and training

FCA has controls in place to implement security awareness and training for all employees
including managers and to monitor training and stay up to date with current technology and
security practices. We found FCA has policies and procedures in place and they are periodically
reviewed. We found FCA requires all employees to complete an annual Information Technology
Security Awareness training. We found FCA documents annual security training activities
through FCA News Flash emails.

Identification and authentication

FCA has controls in place to identify and authenticate users of information systems, to
authenticate devices on information system networks, and to manage users of information
systems. We found FCA has policies and procedures in place and that they are periodically
reviewed. We found FCA users must be authenticated before accessing any resource not publicly
available on the internet. We found the encryption used on the website to access FCA
information, SSL, meets federal standards.

Access control

FCA has controls that limit and monitor access to computer resources to protect against
unauthorized modification, loss, and disclosure. We found FCA has policies and procedures in
place and that they are periodically reviewed. We found FCA deactivates accounts after a
defined period of inactivity and passwords must be changed periodically. We found FCA uses
least privileged access. We found FCA enforces segregation of duties through assigned
authorization. We found FCA locks computers after three consecutive unsuccessful login
attempts. We found that FCA does not permit employees to use personally owned equipment to
access the FCA network.

Audit and accountability

FCA has controls in place to generate, review, and protect audit data and reports. We found FCA
has policies and procedures in place and that they are periodically reviewed. We found FCA
information systems keep logs which provide an audit trail. We found FCA is notified via email
of suspicious events in addition to the event being recorded in the log. We found FCA has the
ability to produce audit trail reports from the firewall and intrusion detection system. We found
FCA’s event/audit logs include time stamps. We found FCA audit log information is restricted to
the information technology personnel.

System and communications protection

FCA has controls in place to separate user functionality from management, to protect against
internet attacks, and to establish trusted communication paths between the user and the system.
We found FCA has policies and procedures in place and that they are periodically reviewed. We
found FCA enforces access controls in order to limit personnel who use the system from
personnel who manage the system. We found FCA has controls in place to limit the effects of



Prepared by Harper, Rains, Knight & Company, P.A.                                             11
                     Independent Accountants’ Report: FISMA Evaluation

common attacks, including denial of service attacks. We found FCA has controls in place to
ensure high priority processes, such as virus scans, have access to needed resources. We found
FCA information is transmitted by secure means such as SSL. We found FCA terminates remote
connections after 30 minutes of inactivity. We found FCA separates FOIA information from
private information on the website.




Prepared by Harper, Rains, Knight & Company, P.A.                                           12
                                                   Independent Accountants’ Report: FISMA Evaluation


                                                                                                                                                                                                          APPENDIX B

OMB FISMA Reporting Template


                                                                                        Section C: Inspector General. Questions 1, 2, 3, 4, and 5.

                                                                                                               Agency Name:




                                                                                                              Question 1 and 2



1. As required in FISMA, the IG shall evaluate a representative subset of systems, including information systems used or operated by an agency or by a contractor of an agency or other organization on behalf of an
agency. By FIPS 199 risk impact level (high, moderate, low, or not categorized) and by bureau, identify the number of systems reviewed in this evaluation for each classification below (a., b., and c.).



            To meet the requirement for conducting a NIST Special Publication 800-26 review, agencies can:
            1) Continue to use NIST Special Publication 800-26, or,
            2) Conduct a self-assessment against the controls found in NIST Special Publication 800-53


            Agencies are responsible for ensuring the security of information systems used by a contractor of their agency or other organization on behalf of their agency, therefore, self reporting by contractors does not meet the
            requirements of law. Self reporting by another Federal agency, for example, a Federal service provider, may be sufficient. Agencies and service providers have a shared responsibility for FISMA compliance.




2. For each part of this question, identify actual performance over the past fiscal year by risk impact level and bureau, in the format provided below. From the representative subset of systems evaluated, identify the
number of systems which have completed the following: have a current certification and accreditation , a contingency plan tested within the past year, and security controls tested within the past year.




                                                                                                  Question 1                                                                                Question 2
                                                                        a.                           b.                             c.                              a.                         b.                         c.
                                                                  Agency Systems             Contractor Systems           Total Number of Systems         Number of systems         Number of systems for Number of systems for which
                                                                                                                                                        certified and accredited    which security controls contingency plans have been
                                                                                                                                                                                     have been tested and     tested in accordance with
                                                                                                                                                                                   evaluated in the last year    policy and guidance




                                    FIPS 199 Risk Impact         Total        Number          Total        Number                        Number          Total       Percent of      Total        Percent of
Bureau Name                                 Level               Number       Reviewed        Number       Reviewed       Total Number   Reviewed        Number         Total        Number          Total       Total Number Percent of Total
Farm Credit Administration            High                               2               2                                          2               2            1        50.0%              2        100.0%                 2         100.0%
                                      Moderate                           1               1            2              2              3               3            2        66.7%              3        100.0%                 3         100.0%
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             3               3            2              2              5               5            3        60.0%              5        100.0%                 5         100.0%
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Bureau                                High                                                                                          0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Moderate                                                                                      0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Low                                                                                           0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                      Not Categorized                                                                               0               0                 #DIV/0!                      #DIV/0!                         #DIV/0!
                                   Sub-total                             0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
Agency Totals                          High                              2               2            0              0              2               2            1         50.0%             2         100.0%                2           100.0%
                                      Moderate                           1               1            2              2              3               3            2        66.7%              3        100.0%                 3         100.0%
                                      Low                                0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                      Not Categorized                    0               0            0              0              0               0            0    #DIV/0!                0     #DIV/0!                   0     #DIV/0!
                                   Total                                 3               3            2              2              5               5            3         60.0%             5         100.0%                5           100.0%




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                                                                                                         13
                                                   Independent Accountants’ Report: FISMA Evaluation


                                                                                                                Question 3

In the format below, evaluate the agency’s oversight of contractor systems, and agency system inventory.


                                   The agency performs oversight and evaluation to ensure information systems used or operated by a contractor of the
                                   agency or other organization on behalf of the agency meet the requirements of FISMA, OMB policy and NIST guidelines,
                                   national security policy, and agency policy. Self-reporting of NIST Special Publication 800-26 and/or NIST 800-53
                                   requirements by a contractor or other organization is not sufficient, however, self-reporting by another Federal agency may
                                   be sufficient.

               3.a.                Response Categories:                                                                                                           - Almost Always, for example, approximately 96-100% of the time
                                        - Rarely, for example, approximately 0-50% of the time
                                        - Sometimes, for example, approximately 51-70% of the time
                                        - Frequently, for example, approximately 71-80% of the time
                                        - Mostly, for example, approximately 81-95% of the time
                                        - Almost Always, for example, approximately 96-100% of the time




                                   The agency has developed an inventory of major information systems (including major national security systems) operated
                                   by or under the control of such agency, including an identification of the interfaces between each such system and all other
                                   systems or networks, including those not operated by or under the control of the agency.

                                   Response Categories:
              3.b.1.                    - Approximately 0-50% complete                                                                                                 - Approximately 96-100% complete
                                        - Approximately 51-70% complete
                                        - Approximately 71-80% complete
                                        - Approximately 81-95% complete
                                        - Approximately 96-100% complete



                                                                                                                                                                  Missing Agency Systems: N/A




              3.b.2.               If the Agency IG does not evaluate the Agency's inventory as 96-100% complete, please list the systems that are missing
                                   from the inventory.




                                                                                                                                                                  Missing Contractor Systems: N/A




               3.c.                The OIG generally agrees with the CIO on the number of agency owned systems.                                                                                     Yes



                                   The OIG generally agrees with the CIO on the number of information systems
               3.d.                used or operated by a contractor of the agency or other organization on behalf of    the agency.                                                                 Yes




               3.e.                The agency inventory is maintained and updated at least annually.                                                                                                Yes




               3.f.                The agency has completed system e-authentication risk assessments.                                                                                               Yes




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                                                                                                   14
                                                     Independent Accountants’ Report: FISMA Evaluation


                                                                                                                     Question 4




Through this question, and in the format provided below, assess whether the agency has developed, implemented, and is managing an agency wide plan of action and milestone (POA&M) process. Evaluate the degree to which the
following statements reflect the status in your agency by choosing from the responses provided in the drop down menu. If appropriate or necessary, include comments in the area provided below.

For items 4a.-4.f, the response categories are as follows:

      -   Rarely, for example, approximately 0-50% of the time
      -   Sometimes, for example, approximately 51-70% of the time
      -   Frequently, for example, approximately 71-80% of the time
      -   Mostly, for example, approximately 81-95% of the time
      -   Almost Always, for example, approximately 96-100% of the time




                                     The POA&M is an agency wide process, incorporating all known IT security weaknesses associated with information
                 4.a.                                                                                                                                            - Almost Always, for example, approximately 96-100% of the time
                                     systems used or operated by the agency or by a contractor of the agency or other organization on behalf of the agency.




                                    When an IT security weakness is identified, program officials (including CIOs, if they own or operate a system) develop,
                 4.b.                                                                                                                                            - Almost Always, for example, approximately 96-100% of the time
                                    implement, and manage POA&Ms for their system(s).



                                     Program officials, including contractors, report to the CIO on a regular basis (at least quarterly) on their remediation
                 4.c.                                                                                                                                            - Almost Always, for example, approximately 96-100% of the time
                                     progress.



                 4.d.               CIO centrally tracks, maintains, and reviews POA&M activities on at least a quarterly basis.                                 - Almost Always, for example, approximately 96-100% of the time


                 4.e.                OIG findings are incorporated into the POA&M process.                                                                       - Almost Always, for example, approximately 96-100% of the time


                                     POA&M process prioritizes IT security weaknesses to help ensure significant IT security weaknesses are addressed in a
                 4.f.                                                                                                                                            - Almost Always, for example, approximately 96-100% of the time
                                     timely manner and receive appropriate resources

Comments:




                                                                                                                     Question 5



OIG Assessment of the Certification and Accreditation Process. OMB is requesting IGs to provide a qualitative assessment of the agency’s certification and accreditation process, including adherence to existing policy, guidance, and
standards. Agencies shall follow NIST Special Publication 800-37, “Guide for the Security Certification and Accreditation of Federal Information Systems” (May, 2004) for certification and accreditation work initiated after May, 2004. This
includes use of the FIPS 199 (February, 2004), “Standards for Security Categorization of Federal Information and Information Systems,” to determine an impact level, as well as associated NIST documents used as guidance for completing
risk assessments and security plans .




                                     Assess the overall quality of the Department's certification and accreditation process.

                                     Response Categories:
                                          - Excellent
                                          - Good                                                                                                                 - Good
                                          - Satisfactory
                                          - Poor
                                          - Failing



Comments: In FY 2006, FCA planned an independent contract review to provide an independent certification and accreditation (C&A) on their remaining two agency systems. Due to a transfer of procurement services to
the Bureau of Public Debt, the contract was not finalized in time to complete the C&A's in FY 2006. The C&A's will be performed in the first quarter of FY 2007.




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                                                                                                       15
                                          Independent Accountants’ Report: FISMA Evaluation



                                                                 Section B: Inspector General. Question 6, 7, 8, and 9.

                                                                                         Agency Name:


                                                                                          Question 6

                      Is there an agency wide security configuration policy?
     6.a.                                                                                                                                             Yes
                      Yes or No.

                      Comments:



                      Configuration guides are available for the products listed below. Identify which software is addressed in the agency wide security configuration policy.
     6.b.             Indicate whether or not any agency systems run the software. In addition, approximate the extent of implementation of the security configuration policy on
                      the systems running the software.




                                                                                                                          Approximate the extent of implementation of the security
                                                                                                                          configuration policy on the systems running the software.

                                                                                                              Response choices include:
                                                                                                              - Rarely, or, on approximately 0-50% of the
                                                                                                                systems running this software
        Product                                                                                               - Sometimes, or on approximately 51-70% of
                                                                                                                the systems running this software
                                                                                                              - Frequently, or on approximately 71-80% of
                                                                Addressed in agencywide
                                                                                                                the systems running this software
                                                                        policy?         Do any agency systems - Mostly, or on approximately 81-95% of the
                                                                                          run this software?    systems running this software
                                                                                                              - Almost Always, or on approximately 96-100% of the
                                                                       Yes, No,                               systems running this software
                                                                               or N/A.                  Yes or No.
                                                                                                                                - Almost Always, or on approximately 96-100% of the
            Windows XP Professional
                                                                                Yes                        Yes            systems running this software
                                                                                                                                - Almost Always, or on approximately 96-100% of the
            Windows NT
                                                                                Yes                        Yes            systems running this software
                                                                                                                                - Almost Always, or on approximately 96-100% of the
            Windows 2000 Professional
                                                                                Yes                        Yes            systems running this software
            Windows 2000 Server
                                                                                N/A                        No
                                                                                                                                - Almost Always, or on approximately 96-100% of the
            Windows 2003 Server
                                                                                Yes                        Yes            systems running this software
            Solaris
                                                                                N/A                        No
            HP-UX
                                                                                N/A                        No
            Linux
                                                                                N/A                        No
                                                                                                                                - Almost Always, or on approximately 96-100% of the
            Cisco Router IOS
                                                                                Yes                        Yes            systems running this software
                                                                                                                                - Almost Always, or on approximately 96-100% of the
            Oracle
                                                                                Yes                        Yes            systems running this software
            Other. Specify:
                                                                                N/A                        No
Comments:




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                                                 16
                                      Independent Accountants’ Report: FISMA Evaluation



                                                                                 Question 7


Indicate whether or not the following policies and procedures are in place at your agency. If appropriate or necessary, include comments in the area provided below.

                    The agency follows documented policies and procedures for identifying and reporting
       7.a.         incidents internally.                                                                                                       Yes
                    Yes or No.
                    The agency follows documented policies and procedures for external reporting to law
       7.b.         enforcement authorities.                                                                                                    Yes
                    Yes or No.
                    The agency follows defined procedures for reporting to the United States Computer
       7.c.         Emergency Readiness Team (US-CERT). http://www.us-cert.gov                                                                  Yes
                    Yes or No.
Comments:



                                                                                 Question 8

                    Has the agency ensured security training and awareness of all employees, including
                    contractors and those employees with significant IT security responsibilities?

                    Response Choices include:
                    - Rarely, or, approximately 0-50% of employees have sufficient training
                                                                                                                     - Almost Always, or approximately 96-100% of employees have
         8           - Sometimes, or approximately 51-70% of employees have sufficient training                     sufficient training
                     - Frequently, or approximately 71-80% of employees have sufficient training
                     - Mostly, or approximately 81-95% of employees have sufficient training
                     - Almost Always, or approximately 96-100% of employees have sufficient training




                                                                                 Question 9



                    Does the agency explain policies regarding peer-to-peer file sharing in IT security
         9          awareness training, ethics training, or any other agency wide training?                                                     Yes
                    Yes or No.




Prepared by Harper, Rains, Knight & Company, P.A.                                                                                                                          17
                   Independent Accountants’ Report: FISMA Evaluation


                                                                       APPENDIX C

Acronyms and Abbreviations
ARC          Administrative Resource Center
BPD          Bureau of Public Debt, Oracle Federal Financials
C&A          Certification and Accreditation
CIO          Chief Information Officer
COGCON       Continuity of Government Condition
COOP         Continuity of Operations Plan
CRS          Consolidated Reporting System
DMZ          Demilitarized Zone
FCA/Agency   Farm Credit Administration
FIPS         Federal Information Processing Standards
FISCAM       Federal Information System Controls Audit Manual
FISMA        Federal Information Security Management Act of 2002
FOIA         Freedom of Information Act
FY           Fiscal Year
GAO          Government Accountability Office
HP           Hewlett Packard
HVAC         Heating Ventilating and Air Conditioning
IP           Internet Protocol
IRM          Information Resource Management
IT           Information Technology
LARS         Loan Account Reporting System
NFC          National Finance Center
NIST         National Institute of Science and Technology
OCFO         Office of the Chief Financial Officer
OIG/IG       Office of the Inspector General
OIT          Office of Information Technology
OMB          Office of Management and Budget
OMS          Office of Management Services
PD           Position Description
PMTS         Property Management Tracking System
POA&M        Plan of Action and Milestone
PPS          Personnel/Payroll System
SSL          Secure Socket Layer
System       Farm Credit System
US-CERT      United States Computer Emergency Readiness Team




Prepared by Harper, Rains, Knight & Company, P.A.                              18
